Before the Committee on Transportation and
Infrastructure
Subcommittee on Aviation
United States House of Representatives

For Release on Delivery
Expected at
10:00 a.m. EST
Thursday
October 30, 2003
CC-2004-004

                          Observations on Bringing
                          Fiscal Discipline and
                          Accountability to
                          FAA’s Air Traffic Control
                          Modernization Program


                          Statement of
                          The Honorable Kenneth M. Mead
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:


We appreciate the opportunity to testify on the Federal Aviation Administration’s
(FAA) efforts to modernize the Nation’s air traffic control system. Our testimony
today will focus on selected FAA major acquisitions, fundamental problems
plaguing modernization projects, as well as actions needed to strengthen the
overall management and execution of the air traffic control modernization
program. FAA’s modernization efforts are critical to enhance the margin of safety
and improve the efficiency and capacity of the National Airspace System.


FAA has made progress with some acquisitions, such as Free Flight Phase 1, and
successfully managed the Y2K problem. Progress with Free Flight Phase 1 builds
on the successful implementation of the Display System Replacement, which
provided new controller displays at FAA facilities that control high altitude traffic.


Also, we are encouraged by the FAA Administrator’s commitment to improving
Agency management and fiscal discipline as reflected in FAA’s new strategic
plan, Flight Plan 2004-2008. The plan calls for greater attention to controlling
costs of major acquisitions and making better business decisions. In addition, we
are encouraged that FAA now has a Chief Operating Officer—Mr. Russ Chew—in
place. This position was vacant for almost three years. The Chief Operating
Officer faces a number of challenges in controlling costs, getting reliable cost and
schedule information on projects, and addressing organizational barriers that
impede the effective management of major acquisitions.


In 1996, Congress exempted FAA from Federal procurement rules that the Agency
said hindered its ability to modernize the air traffic control system.            The
expectation was that FAA would be able to deliver new projects much faster and
within cost and schedule parameters.       Seven years later, contracts have been


                                          1
awarded faster, but the Agency has yet to satisfactorily address underlying and
fundamental problems with major acquisitions.


Mr. Chairman, we see more positive signs in addressing fundamental problems
with major acquisitions from the Administrator and her team than we have seen in
many years. The key will be – as it has been in the past – follow-through.


Our work has identified the following problems with major acquisitions that
require sustained management attention.


   • Committing to major acquisitions and entering into long-term cost-
      reimbursable contracts before user needs and Agency requirements
      are fully understood. This lack of understanding inevitably results in
      significant cost increases and schedule slippages. Moreover, this places
      almost the entire risk on the Government.
   • Misleading and unreliable cost and schedule estimates.                  Current
      estimates for many programs are misleading because they do not accurately
      portray the true cost, schedule, or performance parameters for the projects.
   • Beginning new, costly, and complex programs while still funding
      programs that are significantly over cost and behind schedule. This
      stretches out program schedules, impacts other efforts, and has cash-flow
      implications for the entire modernization account. Until recently, this did
      not have a significant budget impact. Now, FAA finds itself in the position
      of funding new projects while at the same time funding ongoing projects
      that have been delayed for years, all with the same amount of money.
   • Lack of centralized control and lack of basic contract oversight.
      Authority for managing FAA’s major acquisitions is diffused among many
      entities and we have found serious shortcomings in basic contract
      oversight.

                                          2
   • Lack of performance measures for assessing progress with major
       acquisitions, and not holding managers and contractors accountable
       for cost growth and schedule slips.        In the past, FAA has not used
       performance goals for assessing and tracking progress with major
       acquisitions or held managers accountable for cost growth and schedule
       slips.


Addressing these long-standing problems is imperative as illustrated by our recent
work. We analyzed 20 major acquisitions and found that 14 of these projects have
experienced cost growth of over $4.3 billion (from $6.8 billion to $11.1 billion),
which represents significantly more than FAA’s fiscal year (FY) 2004 budget
request of $2.9 billion for modernization. Also, 13 of the 20 projects account for
delays ranging from 1 to 7 years. (See page 12 of our statement.)


Problems with modernization efforts have serious consequences because they
result in costly interim systems, a reduction in units procured, postponed benefits
(in terms of safety and efficiency), or crowding out other modernization projects.
Meanwhile, FAA is just starting two new complex projects that have a combined
value of $3 billion.


Continued cost growth, schedule slips, and shortfalls in performance are not
sustainable given declines in Aviation Trust Fund revenues. Projected revenues
for the Aviation Trust Fund for FY 2004 have dropped from an estimated $12.6
billion in April 2001 to about $9.8 billion in July 2003. Over the next four years
(FY 2004-2007), the Trust Fund is expected to collect about $12 billion less in
taxes than anticipated in April 2001. (See Figure 1.) Further, funding levels in the
reauthorization package being considered in both the House and Senate call for
modernization funding to remain essentially flat (in the $3 billion to $3.1 billion
range) over the next several years.


                                         3
                        Figure 1 - Airport and Airway Trust Fund:
                          Differences in Estimated Tax Revenue

                  $20
  $ in Billions




                  $15
                                                         $14.1           $14.9
                  $10   $12.6            $13.3
                                                                 $11.1           $11.7
                                $9.8             $10.5
                   $5

                   $0
                         FY 2004          FY 2005         FY 2006         FY 2007

                                April 2001 TF Estimate   July 2003 TF Estimate



Continued cost growth of the magnitude seen in the past is unsustainable in
today’s budget-constrained environment.


Committing to Major Acquisitions and Long-Term Cost-Reimbursable
Contracts before User Needs and Agency Requirements are Fully Understood.
Our work has consistently shown that FAA begins programs without a full
understanding of what it will take in terms of development to meet Agency
requirements and expectations for performance.             This lack of understanding,
coupled with use of cost-reimbursable contracts (where contractors have little
incentive to control costs), has led to significant cost increases with major
acquisitions. As a result, costs associated with additional development work and
changing system requirements is absorbed fully by the government.




                                                 4
In addition to not fully knowing requirements and entering into cost-reimbursable
contracts, FAA continues to underestimate the amount of development work
needed for its projects. For example, problems we have seen with the Local Area
Augmentation System (LAAS)—a new precision approach and landing system—
show that FAA significantly underestimated the development effort required to
meet stringent requirements for ensuring the system can safely operate as
intended. FAA signed a development contract for LAAS earlier this year and the
Agency believed that development work to meet FAA’s requirements was about
80 percent complete. Now, FAA believes that only 20 percent of development
required to meet FAA requirements is done.


Likewise, FAA significantly underestimated the amount of software development
that would be required for the Standard Terminal Automation Replacement
System (STARS) to meet the Agency’s human factors requirements. This extra
development added 3 years to the schedule, and $500 million to the cost of the
STARS program. Due to the delays in the STARS program, FAA deployed an
interim system over the past 5 years, the Common Automated Radar Terminal
System (Common ARTS), to 141 terminal facilities, or over 75 percent of the
facilities where FAA intends to deploy STARS.


One significant exception to programs with cost-overruns is the Advanced
Technologies and Oceanic Procedures (ATOP) program, which is an effort to
modernize FAA facilities that manage air traffic over the Atlantic and Pacific
Oceans. FAA relied on a fixed-price contract and has kept requirements stable.
As a result, costs associated with resolving software development problems
associated with ATOP have been borne by the contractor, not FAA.


FAA recognizes that a much better assessment of requirements, risk, and software
maturity will help it acquire new systems more effectively, and thereby provide


                                       5
more realistic expectations for when new systems can be delivered and what can
be expected of them. In this regard, FAA is currently reevaluating what it can do
on a number of programs.                      For example, the Agency tasked the MITRE
Corporation for assistance in reviewing alternatives for STARS.


Misleading and Unreliable Cost and Schedule Estimates. Many of the projects
we reviewed—both old and new—do not have reliable cost, schedule, or
performance estimates (i.e. baselines). Without better information, FAA cannot
effectively plan, manage programs, or meet expectations for improving the safety,
security, and capacity of the National Airspace System. Current estimates for
many programs are misleading because they do not accurately portray the true
cost, schedule, or performance parameters for the projects. The following table
provides information on 4 major acquisition programs that do not have reliable
baselines.

Figure 2 - Four Major Modernization Programs that Need
Updated Cost and Schedule Estimates
                             Estimated                 Percent
     Program               Program Costs                Cost            Implementation       Schedule
                        (Dollars in Millions)          Growth              Schedule           Delay
                      Original    Current                        Original      Current
Wide Area                $892.4      $2,922.4*              227%     1998-2001    2003-TBD**    5 years
Augmentation
System

Standard Terminal         $940.2          $1,690.2            80%        1998-2005   2002-2012**   7 years
Automation
Replacement System

Local Area                $530.1            $696.1            31%        2002-TBD    2006-TBD**    4 years
Augmentation
System

Integrated Terminal       $276.1            $286.1             4%        2002-2003    2003-2008    5 years
Weather System

   *      This includes the cost to acquire geostationary satellites.
   **     TBD=To Be Determined (costs and schedules are under review).




                                                          6
These estimates also do not include the costs to operate and sustain these new
systems after they are fielded. We have testified previously that FAA needs to get
control of its operations costs. Nevertheless, on some programs (for instance,
STARS), program officials have proposed moving acquisition costs totaling
$147 million into the overburdened operations account in order to maintain an
already unrealistic cost estimate of $1.69 billion.


We have recommended that FAA rebaseline many of its modernization projects
and the Agency is in the process of developing new cost, schedule, and
performance parameters. This may require FAA to establish a new strategy that
accelerates some projects and defers or cancels others.


Beginning New, Costly, and Complex Programs While Still Funding and
Managing Programs that Are Significantly Over Cost and Behind Schedule.
Since the inception of the modernization program in the 1980s, FAA has
repeatedly embarked on new projects although ongoing efforts were not completed
within cost and schedule parameters.            This stretches out program schedules,
impacts other efforts, and has cash-flow implications for the entire modernization
portfolio. For example, in FY 2002 alone, FAA reprogrammed over $40 million
from    other   modernization     efforts   (data     link   communications,   oceanic
modernization, and instrument landing systems) to pay for cost increases
associated with STARS. Greater attention to this issue is important given that
funding for the modernization account overall is expected to remain essentially
flat.


Although many programs are experiencing cost and schedule problems, FAA is
beginning two new high-risk, billion-dollar projects. One effort is the En Route
Automation Replacement Program (ERAM), which provides new hardware and
software for facilities that manage high altitude traffic. Another project early in


                                            7
the acquisition phase is the Next Generation Air-to-Ground Communications
Program (NEXCOM), which will provide new radios and related systems to
transition to digital communications. Each has potential for cost growth because
of size and complexity.      For example, ERAM, with an estimated cost of
$2.1 billion, involves developing and testing over 1 million lines of software code.


Successfully managing the new projects, while also managing the programs that
have been delayed for several years, will require a level of cost control and
improved management heretofore unseen by FAA since the modernization effort
began in the early 1980s. Cost control for new programs such as ERAM and
NEXCOM is essential while FAA moves forward with ongoing efforts, such as
STARS and the Wide Area Augmentation System (WAAS). FAA expects to
spend $1.8 billion on these four projects alone between FYs 2004 and 2006. Any
cost increases associated with these programs will have a cascading effect on other
efforts and limit FAA’s flexibility for beginning new projects. The following
figure illustrates the funding profiles for ERAM and NEXCOM, as well as two
other major projects that have been delayed for a number of years.




                                         8
             Figure 3. Funding Profiles for Four Key Major Acquisitions
    $350




    $300




    $250




     $20s0
 Million                                                                    STARS
                                                                            ERAM
                                                                            WAAS
    $150                                                                    NEXCOM




    $100




      $50




       $0
                   2003          2004                  2005     2006
                                        Fiscal Years




We know that FAA is trying to get a handle on this difficult situation. Doing so
will inevitably involve rearranging priorities, modifying contract instruments, and
modifying requirements.


Lack of Centralized Control and Lack of Basic Contract Oversight.
Responsibility for major acquisitions is currently shared among several entities,
including special program offices (Free Flight), lines of business (Terminal
Business Unit), and integrated product teams (En Route).        For example, the
Associate Administrator for Research and Acquisitions does not have control over
projects managed by the Terminal Business Unit, which controls over
$500 million annually. This includes important programs, such as STARS. The
new Chief Operating Officer will have to resolve this lack of centralized control
over major acquisitions.



                                              9
Our work has also found that FAA has not followed sound business practices for
administering contracts.   For instance, we recently reported that the STARS
program could not reconcile discrepancies between contractor billings and internal
expenditure reports totaling $41 million.    Moreover, internal assessments of the
STARS program office concluded that cost estimates had been unrealistically low
or were not prepared, and contract management was not a priority.


We have consistently found a lack of basic contract administration at every stage
of contract management from contract award to contract closeout. In our May
2002 report on the oversight of cost-reimbursable contracts, we found cost-
reimbursable contracts totaling about $2 billion that did not have required incurred
cost audits by the Defense Contract Audit Agency (DCAA).


We have recommended on several occasions that FAA have DCAA conduct more
audits on existing as well as closed contracts. Until recently, no action on this
basic step of contract administration had been taken.        This year, FAA has
requested audits for 8 of 27 existing contracts over $100 million. However, FAA
has a ways to go since over $8 billion in cost-reimbursable contracts are still not
being audited by DCAA.


Developing—and Using—Performance Goals for Assessing Progress with
Major Acquisitions and Holding Managers and Contractors Accountable. In the
past, FAA has not used performance goals for assessing and tracking progress
with major acquisitions or held managers accountable for cost growth and
schedule slips. FAA’s new strategic plan of October 2003 represents a sharp
departure from the past by establishing a performance target for making sure 80
percent of “critical” acquisition programs are on schedule and within 10 percent of
budget. This is a step any business that pursues advanced technologies would



                                        10
take. FAA should hold staff and contractors accountable for keeping projects
within cost and schedule parameters.




                                       11
                        Cost and Schedule Variances for
                               Existing Programs

                            Estimated          Percent
     Program              Program Costs         Cost          Implementation        Schedule
                       (Dollars in Millions)   Growth             Schedule           Delay
                      Original     Current                Original       Current
 NAS Infrastructure    $100.8      $350.9       248%     1997-2000      2001-2005   5 years
Management System
       NIMS
     Wide Area         $892.4     $2,922.4*     227%     1998-2001    2003-TBD**    5 years
   Augmentation
       System
       WAAS
 Airport Movement       $59.8      $146.0       144%     1994-1996     2001-2003    7 years
 Area Safety System
      AMASS
  Next-Generation      $406.0      $986.4       143%     2002-2008     2002-2010    2 years
    Air/Ground
  Communications
       System
     NEXCOM
 Standard Terminal     $940.2     $1,690.2      80%      1998-2005    2002-2012**   7 years
    Automation
Replacement System
      STARS
  Operational and      $174.7      $251.0       44%      1998-2001     2002-2005    4 years
   Supportability
  Implementation
       System
       OASIS
  Aviation Safety      $207.6      $296.1       43%       1982-          1982-      N/A***
  Analysis System                                        Ongoing        Ongoing
       ASAS
    Local Area         $530.1      $696.1       31%      2002-TBD     2006-TBD**    4 years
   Augmentation
       System
       LAAS
Automatic Dependent    $215.1      $268.4       25%      2001-TBD      2001-2012      N/A
   Surveillance -
     Broadcast
       ADS-B
  Air Surveillance     $743.3      $916.2       23%      2000-2005     2003-2010    5 years
     Radar - 11
      ASR-11
 Weather and Radar     $126.4      $152.7       21%      1999-2000     2002-2003    3 years
     Processor
       WARP
  Airport Surface      $424.3      $505.2       19%      2003-2007     2003-2007      N/A
Detection Equipment
       Model
      ASDE-X



                                               12
                              Cost and Schedule Variances for
                                     Existing Programs

                                 Estimated                    Percent
     Program                  Program Costs                    Cost         Implementation        Schedule
                            (Dollars in Millions)             Growth           Schedule            Delay
                           Original          Current                     Original     Current
 Integrated Terminal        $276.1           $286.1               4%    2002-2003    2003-2008     5 years
   Weather System
        ITWS
 Air Traffic Control          $281.8          $289.6              3%    2000-2004    2002-2007     3 years
 Beacon Interrogator
      ATCBI-6
         FAA                  $205.5          $205.7             N/A    2002-2008      TBD         1 year
Telecommunications
    Infrastructure
         FTI
 Free Flight Phase 1          $726.9          $695.5             N/A    1998-2002    1998-2002   Completed
        FFP1
 Free Flight Phase 2          $546.2          $510.5             N/A    2003-2005    2003-2006     1 year
        FFP2
Total                      $6,857.2        $11,169.0                                             1 to 7 years
    *     This includes the cost to acquire geostationary satellites.
    **    Costs and schedules are under review.
    ***   Not applicable


Mr. Chairman, this concludes my statement. I would be happy to answer any
questions that you or other members of the Subcommittee may have.




                                                               13
                                                                      Attachment
                                                                     Page 1 of 11
Introduction: FAA’s Modernization Funding and Budget
Constraints

FAA operates a vast network of radars, automated data processing, navigation, and
communications equipment 24 hours a day, 365 days a year. FAA spends almost
$3 billion annually on efforts to modernize these systems and networks.
Historically, FAA’s modernization initiatives have experienced significant cost
increases, schedule slips, and shortfalls in performance.

In 1996, Congress exempted FAA from Federal procurement rules that the Agency
said hindered its ability to modernize the air traffic control system. Seven years
later, we continue to see large cost overruns and schedule slips in FAA’s major
modernization programs. In June 2003, we reported that of 20 major acquisitions
reviewed 14 of these projects have experienced cost growth of over $4.3 billion
(from $6.8 billion to $11.1 billion), which represents significantly more than
FAA’s FY 2004 $2.9 billion request for modernization.

Continued growth of that magnitude is unsustainable given the multibillion-dollar
declines in projected Aviation Trust Fund receipts and the projected levels of
funding authorized in FAA’s Facilities and Equipment account. Projected tax
receipts to the Aviation Trust Fund for FY 2004 have dropped from approximately
$12.6 billion estimated in April 2001 to about $10.2 billion estimated in February
2003. Over the next 4 years (FY 2004 through FY 2007), FAA’s Aviation Trust
Fund tax revenues are expected to be about $12 billion less than projections made
in April 2001. (See the following figure.)
                                                                            Attachment
                                                                           Page 2 of 11


                        Airport and Airway Trust Fund: Differences in
                                   Estimated Tax Revenue

                  $20
  $ in Billions




                  $15
                                                         $14.1           $14.9
                  $10     $12.6          $13.3
                                                                 $11.1           $11.7
                                  $9.8           $10.5
                   $5

                   $0
                           FY 2004        FY 2005         FY 2006         FY 2007

                               April 2001 TF Estimate    July 2003 TF Estimate


The decline in tax revenue comes at a time when the Federal Government is in
deficit spending and new financial commitments, such as homeland security and
the war on terrorism, will further stretch the Government’s resources. Also, FAA
reauthorization proposals, which are currently being considered in Congress, call
for only minimal increases in FAA’s Facilities and Equipment account. As a
result, FAA will have to operate within a budget framework that remains
essentially flat over the next 4 years.

Cost, Schedule, and                      Performance      Problems       with    Major
Acquisitions Persist
FAA has made progress with a number of acquisitions, including Free Flight
Phase 1 which provided new automated controller tools at selected locations and
new communication systems that link FAA and airline operations centers.
Progress with Free Flight builds on the successful deployment of the Display
System Replacement, which provided new controller displays at FAA facilities
that control high altitude traffic.

However, modernization programs continue to experience significant cost,
schedule, and performance problems. For instance, just 4 of the 20 acquisitions
we analyzed have experienced cost growth ranging as high as 227 percent and
schedule slippage as long as 7 years. (See the following figure.) Any additional
                                                                                                Attachment
                                                                                               Page 3 of 11
cost growth in current projects will result in further lengthening implementation
schedules, postponing benefits, or limiting FAA’s ability to start new projects.


         Cost and Schedule Growth in Four Major Modernization
                              Programs


                               Estimated                Percent
     Program                Program Costs                Cost              Implementation         Schedule
                          (Dollars in Millions)         Growth                 Schedule            Delay
                         Original      Current                         Original       Current
Wide Area                  $892.4      $2,922.4*          227%        1998-2001     2003-TBD**     5 years
Augmentation
System

Standard Terminal          $940.2          $1,690.2       80%         1998-2005   2002-2012**      7 years
Automation
Replacement System

Local Area                 $530.1            $696.1       31%         2002-TBD    2006-TBD**       4 years
Augmentation
System

Integrated Terminal        $276.1            $286.1        4%         2002-2003    2003-2008       5 years
Weather System

    *      This includes the cost to acquire geostationary satellites.
    **     TBD=To Be Determined (costs and schedules are under review).




Problems with modernization efforts have serious consequences because they
result in costly interim systems, a reduction in units procured, postponed benefits
(in terms of safety and efficiency), or crowding out other modernization projects.
Many of the 20 projects we reviewed—both old and new—do not have reliable
cost, schedule, or performance baselines, meaning that FAA cannot effectively
plan, manage programs, or meet expectations for improving the safety, security,
and capacity of the National Airspace System.

Our work shows that problems are traceable to a number of factors, including
poorly defined cost estimates, changing requirements, complex and substantial
software development, and difficulty in determining how new systems can be
certified as safe for use. For example:

    • The Standard Terminal Automation Replacement System (STARS) – In
      1996, FAA selected STARS as the centerpiece of its terminal automation
      modernization strategy. We recently reported the STARS acquisition cost
      baseline has nearly doubled since 1996 from $940 million to $1.69 billion,
                                                                  Attachment
                                                                 Page 4 of 11
   and the vast majority of systems have not yet been procured and deployed.
   Due to delays in the STARS program over the past 5 years, FAA deployed
   an interim system, Common ARTS, to 141 terminal facilities, or over 75
   percent of the facilities where FAA intends to deploy STARS. Common
   ARTS is successfully operating at FAA’s largest facilities, such as New
   York, Chicago, and Atlanta. At the 10 largest FAA facilities that use
   Common ARTS, air traffic controllers supported more than 14 million
   flight operations last year.

   While FAA has made some progress with STARS, which was successfully
   deployed at Philadelphia last year, problems in adapting the software for
   specific sites is delaying the use of STARS at additional locations.
   Moreover, to complete the STARS deployment within the cost baseline of
   $1.69 billion, the program office is counting on future cost “savings” of
   $281 million that are not attainable. For instance, program officials are
   counting on generating more than half of these “savings” ($147 million) by
   shifting costs from the Facilities and Equipment budget to the operations
   budget. We do not consider shifting these costs to the operations budget as
   cost “savings.” Further, FAA will not have credible cost estimates for
   terminal modernization until independent cost assessments of STARS and
   Common ARTS, currently underway by FAA’s investment analysis group
   and by MITRE Corporation, are complete.

   FAA now faces a difficult decision on how to complete terminal
   automation modernization. We understand FAA and the STARS contractor
   are currently negotiating a fixed price contract to reduce the procurement
   cost of STARS. At this time, it is uncertain whether any resulting fixed
   price contract will include all work associated with completing software
   development and site-specific adaptation of STARS at all locations.
   Regardless of the outcome of the negotiations, whatever decision FAA
   makes for its modernization of terminal automation should be based on the
   results of the independent analyses

• The Wide Area Augmentation System (WAAS) - is a new satellite-based
  navigation system to enhance all phases of flight. The program has a long
  history of vexing technical problems and uncertainty regarding how much
  the system will cost, when it will be delivered, and what benefits can be
  obtained. Limited WAAS services (for en route services only) became
  available in July 2003, but additional work will be required to expand
  WAAS coverage (through additional ground stations). WAAS was
                                                                          Attachment
                                                                         Page 5 of 11
       intended to provide Category I performance1 to the majority of the Nation's
       airports but will provide something less than promised when the system is
       deployed. FAA needs to make a downward adjustment in the $2.9 billion
       WAAS cost estimate to reflect the fact that the Agency will not pursue
       Category I performance.

    • The Integrated Terminal Weather System (ITWS) - provides air traffic
      managers with a 20-minute forecast of weather conditions near airports and
      can help the National Airspace System recover from periods of bad
      weather. FAA initially planned to complete deployment of all 38 systems
      by 2003 at a cost of about $286 million, but production costs have
      skyrocketed from $360,000 to $1 million per system. FAA cannot execute
      the program as intended and, absent additional funding, will defer adding
      several planned improvements and may procure fewer systems than
      intended. A decision about ITWS is expected later this year.

    • The Local Area Augmentation System (LAAS) – is a new precision approach
      and landing system. This past year, we reported that expectations with
      respect to cost, schedule, and performance needed to be reset because the
      new landing system is not as mature as FAA anticipated. CAT I LAAS is
      planned for 2006 and the more demanding CAT II/III performance is now a
      research and development effort with an uncertain completion date. FAA
      signed a development contract for LAAS (CAT I) earlier this year and the
      Agency believed that development work to meet FAA requirements was
      about 80 percent complete. Now, FAA believes that only 20 percent of the
      development required to meet FAA’s requirements is done. FAA needs to
      seriously rethink how it intends to move forward with LAAS and what
      level of investment is warranted.

Another project that warrants attention is the Advanced Technologies and Oceanic
Procedures (ATOP) program, which will modernize equipment at facilities that
manage air traffic principally over the Atlantic and Pacific Oceans. ATOP is
important to enable FAA to safely reduce separation between aircraft to enhance
capacity and provide for more fuel-efficient routing. Since 1995, FAA has spent
over $300 million to modernize its oceanic facilities, but past efforts met with little
success due to, among other things, poor contractor performance.

Under a new initiative in June 2001, FAA awarded a $217 million contract for
ATOP to provide oceanic systems in Oakland (June 2004), New York (September
2005), and Anchorage, Alaska (March 2006). However, since the contract was

1
 Category I precision approach has a 200-foot ceiling/decision height and
visibility of ½ mile.
                                                                        Attachment
                                                                       Page 6 of 11
awarded, the contractor has experienced delays primarily due to problems in
completing software development and testing. These problems are due to the fact
that FAA and the contractor planned to rely extensively on non-developmental
software, but additional software development was needed to meet Agency
requirements. The first phase of testing, known as factory acceptance testing, was
completed 12 months behind schedule. However, FAA built additional time in the
program schedule in the event that technical problems surfaced. Agency officials
still believe that ATOP can be deployed and be operational at the first site in June
2004 as planned.

FAA is now preparing to perform operational and site acceptance testing. The
results of these tests will determine whether or not the schedule for deploying
ATOP to Oakland in June 2004, which is only 7 months away, can be met.

It is important to note that to date, schedule delays associated with software
development problems have not resulted in cost growth because this is a fixed
price contract. The contractor has absorbed all costs to date, not FAA. To
continue to control costs with this acquisition, FAA needs to keep requirements
stable.

There is little room for continued cost growth and schedule slips in FAA
programs, and the Agency must get as much as it can for each acquisition dollar.
This is critically important because there are billion-dollar projects just getting
started.


Cost Control Is Essential for Billion-Dollar Projects Early in the
Acquisition Phase
It is important for FAA to control costs for programs just getting started that are
high-risk efforts because of their size, complexity, and level of developmental
work required. Taken together, the En Route Automation Modernization and Next
Generation Air-Ground Communications program have a combined cost of
$3 billion.

   • The En Route Automation Modernization Program (ERAM) – is a set of
     projects aimed at modernizing hardware and software systems that control
     high altitude traffic. ERAM is estimated to cost $2.1 billion, excluding
     smaller, associated efforts. This program is one of the largest and most
     software-intensive programs FAA has undertaken since the Advanced
     Automation System. In December 2002, FAA signed a cost-plus contract
     with Lockheed Martin to provide 26 ERAM systems. ERAM will replace
     the existing en route system, called HOST, and allow FAA to accommodate
     new Free Flight technologies. In Phase 1 of ERAM, FAA will replace the
                                                                           Attachment
                                                                          Page 7 of 11
       HOST back-up system (known as the Direct Access Radar Channel, or
       “DARC”).

       FAA faces significant risks in completing the ERAM program. For
       instance, schedules are very aggressive for such a software-intensive
       project, and FAA plans to replace DARC beginning in April 2005, just
       18 months from now. At this stage, key risks that FAA has identified
       include (1) developing a multi-radar “surveillance tracker” (for monitoring
       aircraft and detecting potential conflicts), (2) integrating ERAM with other
       FAA efforts (planned upgrades to DSR and airspace redesign), and
       (3) developing and testing significant amounts of non-developmental and
       developmental software. We have just begun a review of the ERAM
       program.

    • The Next Generation Air-to-Ground Communications (NEXCOM) - is
      intended to implement the use of new multi-mode radios and foster the
      transition to digital communications. Ultimately, FAA intends to be able to
      broadcast both voice and data over the same channel. The first stage is
      estimated to cost over $900 million. The cost for later NEXCOM efforts is
      uncertain but substantial. NEXCOM has been controversial with the
      airlines because of timing issues and concerns about FAA’s preferred
      technology2.

       Much work remains for FAA to develop an executable path for moving
       forward with NEXCOM. FAA needs to address (1) the most cost effective
       way to meet the demand for new radio frequencies and when a lack of new
       frequencies will inhibit growth, (2) how quickly airspace users can
       transition to new radios (if required), and (3) how FAA will harmonize its
       plans with other countries. We have an audit underway of NEXCOM.

The following chart shows that cost control on ERAM and NEXCOM is essential
because FAA must fund these new complex initiatives while moving forward with
ongoing efforts, such as STARS and WAAS, which have been delayed for several
years.




2
 FAA is pursuing “VDL-3” technology as part of the NEXCOM effort. This is a
digital technology that is expected to allow for significantly better use of existing
radio frequencies.
                                                                                               Attachment
                                                                                              Page 8 of 11

                 Funding Profiles for Four Key Major Acquisitions
     $350




     $300




     $250




      $20s0
  Million                                                                                             STARS
                                                                                                      ERAM
                                                                                                      WAAS
     $150                                                                                             NEXCOM




     $100




       $50




        $0
                   FY03                  FY04                   FY05                 FY06
                                                 Fiscal Years




Source: FAA’s Capital Investment Plan, Detailed Financial Baseline, January 23, 2003, and ERAM Final Investment
Decision, June 12, 2003

On these four projects alone, FAA expects to spend $1.8 billion between FYs
2004 and 2006. This is exclusive of efforts to move forward with other programs,
such as a $270 million additional upgrade to controller displays at facilities that
control high altitude traffic, and efforts to improve runway safety. Successfully
managing the execution of these complex efforts in this time period will require a
level of cost control and effective management heretofore unseen by FAA since it
began the modernization effort in the early 1980s.

FAA NEEDS TO TAKE ACTION TO IMPROVE ITS MANAGEMENT
OF MAJOR ACQUISITIONS
FAA has important opportunities to control costs and act more like a business in
developing new air traffic modernization systems. According to FAA’s strategic
plan, Flight Plan 2004-2008, the Agency must control program costs, refocus
investment priorities on programs that perform, and make management decisions
based on sound business principles. These are fundamental management
principles that should apply to all acquisition efforts.
                                                                      Attachment
                                                                     Page 9 of 11
We are encouraged that FAA now has a Chief Operating Officer—Mr. Russ
Chew—in place to implement a strategic plan for the air traffic control system and
ensure that air traffic organization actions are consistent with long-term FAA
strategies, increase productivity, and implement cost saving measures. This
position was established in 2000 by the Wendell H. Ford Aviation Investment and
Reform Act for the 21st Century (Public Law 106-181) but remained vacant for
several years. Also, we understand that the Chief Operating Officer is developing
a new organizational structure for Air Traffic Services, which will impact how
FAA develops and acquires new systems. In conjunction with the changes being
considered, a number of actions need to be taken.

   • User needs and Agency requirements must be fully understood before
     committing to major acquisitions and entering into long-term cost-
     reimbursable contracts. Our work has consistently shown that FAA begins
     programs without a full understanding of what it will take in terms of
     development to meet Agency requirements and expectations for
     performance. This lack of understanding, coupled with use of cost-
     reimbursable contracts (where contractors have little incentive to control
     costs) has led to significant cost increases with major acquisitions. As a
     result, costs associated with additional development work and changing
     system requirements is absorbed fully by the government.

      In addition to not fully knowing requirements and entering into cost-
      reimbursable contracts, FAA continues to underestimate the amount of
      development work needed for its projects. For example, problems we have
      seen with LAAS—a new precision approach and landing system—show
      that FAA significantly underestimated the development effort required to
      meet stringent requirements for ensuring the system can safely operate as
      intended. FAA signed a development contract for LAAS earlier this year
      and, at the time, the Agency believed that development work to meet
      FAA’s requirements was about 80 percent complete. Now, FAA believes
      that only 20 percent of development required to meet FAA’s requirements
      is done.

      Likewise, FAA significantly underestimated the amount of software
      development that would be required for STARS to meet the Agency’s
      human factors requirements. This extra development added 3 years to the
      schedule, and $500 million to the cost of the STARS program.

   • Updating the cost, schedule, and performance estimates for many major
     acquisitions, including STARS, WAAS, ITWS and LAAS at a minimum.
     Many of the projects we reviewed—both old and new—do not have
     reliable cost, schedule, or performance estimates (i.e. baselines). Without
                                                                     Attachment
                                                                   Page 10 of 11
   better information, FAA cannot effectively plan, manage programs, or meet
   expectations for improving the safety, security, and capacity of the National
   Airspace System. Current baselines for many programs are misleading
   because they do not accurately portray the true cost, schedule, or
   performance parameters for the projects.

   Additionally, these estimates do not include the costs to operate and sustain
   these new systems after they are fielded. We have testified previously that
   FAA needs to get control of its operations costs. Nevertheless, on some
   programs (for instance, STARS), program officials have proposed moving
   acquisition costs totaling $147 million into the overburdened operations
   account in order to maintain an already unrealistic cost estimate of
   $1.69 billion.

   We have recommended that FAA update its cost and schedule estimates for
   many of its modernization projects, and the Agency is in the process of
   developing new cost, schedule, and performance parameters for a number
   of projects. This may require FAA to establish a new strategy that
   accelerates some projects and defers, or cancels, others.

• Centralizing control and strengthening contract oversight. Responsibility
  for major acquisitions is currently shared among several entities, including
  special program offices (Free Flight), lines of business (Terminal Business
  Unit), and integrated product teams (En route). For example, the Associate
  Administrator for Research and Acquisitions does not have control over
  projects managed by the Terminal Business Unit, which controls over
  $500 million annually. This includes important programs, such as STARS.

   To protect the Government interests, FAA must adhere to the basic
   principles of contract oversight and administration. Failure to do so can
   result in major problems for important programs. For instance, internal
   assessments of the STARS program office concluded that cost estimates
   had been unrealistically low or were not prepared; contract management
   was not a priority; and that critical oversight positions were not filled, such
   as the business and financial manager as well as contracting officer’s
   technical representative. We also recently reported that the STARS
   program could not reconcile discrepancies between contractor billings and
   internal expenditure reports totaling $41 million.

   We have also consistently found a lack of basic contract administration at
   every stage of contract management from contract award to contract
   closeout. In our May 2002 report on the oversight of cost-reimbursable
                                                                   Attachment
                                                                 Page 11 of 11
   contracts, we found cost-reimbursable contracts totaling about $2 billion
   did not have required incurred cost audits by DCAA.

   We have recommended on several occasions that FAA have DCAA
   conduct more audits on existing as well as closed contracts. Until recently,
   no action on this basic step of contract administration had been taken. This
   year, FAA has requested audits for 8 of 27 existing contracts over
   $100 million. However, FAA has a ways to go since over $8 billion in
   cost-reimbursable contracts are still not being audited by DCAA.

• Developing and using performance goals for assessing progress and
  holding managers accountable. In the past, FAA has not used performance
  goals for assessing and tracking progress with major acquisitions or held
  managers accountable for cost growth and schedule slips. FAA’s new
  strategic plan of October 2003 represents a sharp departure from the past by
  establishing a performance target for making sure 80 percent of “critical”
  acquisition programs are on schedule and within 10 percent of budget. This
  is a step any business that pursues advanced technologies would take. FAA
  should hold staff and contractors accountable for keeping projects within
  cost and schedule parameters.

• Improving cost estimating and placing greater emphasis on life-cycle
  management and impact on the Operations account. Most of our comments
  today have focused on the cost of developing and acquiring new systems
  (or what is funded through the modernization account)—not the life-cycle
  cost to sustain new systems once they are fielded. The modernization
  account only funds the sustainment of new systems for 2 years. Subsequent
  costs are funded from FAA’s Operations account, which our recent work
  shows is also overburdened. Although FAA’s Acquisition Management
  System places considerable emphasis on life-cycle costs, FAA’s own
  internal assessment shows that insufficient attention has been placed on this
  matter.

   Paying attention to life-cycle costs is important because while FAA may be
   able to afford to develop new systems, it may not be able to afford to
   operate them. For example, FAA decided to defer plans to move forward
   with Controller-Pilot Data Link Communications (Data Link) because of,
   among other things, it would have added $54 million to the Operations
   account between FYs 2005 and 2008 for just 8 locations.

                                   - - -
